                                                U.S. DEPARTMENT OF
                               HOUSING AND URBAN DEVELOPMENT
                                        OFFICE OF INSPECTOR GENERAL



                                             February 26, 2014
                                                                                              MEMORANDUM NO:
                                                                                              2014-CF-1804


Memorandum
TO:            Dane M. Narode
               Associate General Counsel for Program Enforcement, CACC

               //signed//
FROM:          Kimberly Randall
               Director, Joint Civil Fraud Division, GAW

SUBJECT:       Final Action
               Deandra Caison
               Section 8 Landlord Settled Violations of the Housing Choice Voucher Program


                                           INTRODUCTION

The U.S. Department of Housing and Urban Development (HUD), Office of Inspector General
(OIG), conducted a review of Section 8 Housing Choice Voucher program payments made to
Deandra Caison, a landlord, for a tenant residing in a property that Ms. Caison no longer owned.

                                             BACKGROUND

HUD’s Section 8 Housing Choice Voucher program provides rental subsidies through tenant-
based vouchers for housing units chosen by the tenant in the private market. These vouchers are
administered locally by public housing agencies. To participate in the program, property owners
enter into housing assistance payments contracts with housing authorities. The housing
assistance payments contract states that unless the owner has complied with all provisions of the
contract, the owner does not have a right to receive payments under the contract. In addition, the
property owner certifies to HUD that the assisted family does not own or have an interest in the
contract unit. The composition of the household must be approved by the housing agency, other
persons may not be added to the household without the prior written approval of the owner and
the housing agency, and the contract unit may be used only by the approved household members.

Deandra Caison was a landlord who participated in HUD’s Section 8 Housing Choice Voucher
program. Ms. Caison entered into a housing assistance payments contract with the Orlando
Housing Authority in November 2005 to lease her property to an eligible low-income
resident. Ms. Caison received housing assistance payments for her tenant for the period

                                           Joint Civil Fraud Division
                               400 State Avenue, Suite 501, Kansas City, KS 66101
                          Visit the Office of Inspector General Web site at www.hudoig.gov.
November 2005 through March 2010. However, she had sold the property in May 2006 and was
not eligible to continue receiving the Section 8 payments for the tenant. The Authority
discovered the alleged fraud in 2010 when the tenant reported to the Authority that the
subsidized home was going into foreclosure. The Authority requested that Ms. Caison repay the
$44,893 in housing assistance paid to her from June 2006 through March 2010. The Authority
referred Ms. Caison to HUD OIG when she failed to repay the $44,893.

                                     RESULTS OF INVESTIGATION

Deandra Caison received Section 8 housing assistance payments from the Authority for a tenant
residing in a property that she no longer owned. Ms. Caison had sold the property to her brother
in May 2006 but continued to receive housing assistance payments through March 2010.
Between November 2007 and March 2010, Caison received $29,055 1 in housing assistance
payments from the Authority.

On or about August 29, 2013, HUD’s Office of Program Enforcement issued a complaint against
Ms. Caison under the Program Fraud Civil Remedies Act. To resolve the matter and to avoid the
uncertainty of litigation, the parties agreed in January 2014 to settle the matter for a lump-sum
payment of $10,000 based upon Ms. Caison’s ability to pay.

                                            RECOMMENDATION

We recommend that HUD’s Office of General Counsel, Office of Program Enforcement,

1A.       Agree to allow HUD OIG to post the $10,000 settlement to HUD’s Audit Resolution and
          Corrective Actions Tracking System as an ineligible cost.




1
    Ms. Caison received $44,893 in housing assistance payments from June 2006 through March 2010; however,
    HUD sought relief only for payments and claims made after November 1, 2007, due to the statute of limitations
    under the Program Fraud Civil Remedies Act.




                                                          2
